               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Southeastern Pennsylvania
    Processing and Distribution Center
             Consolidation

                       Audit Report




                                              May 16, 2014

Report Number NO-AR-14-006
                                                                                May 16, 2014

                                              Southeastern Pennsylvania Processing and
                                                       Distribution Center Consolidation

                                                             Report Number NO-AR-14-006



BACKGROUND:
The U.S. Postal Service continues to              year, and about $9.4 million annually in
aggressively cut costs. Its efforts include       subsequent years. Our analysis
consolidating the mail processing                 indicates that adequate machine
network to align it with reduced mail             capacity and floor space existed and
volume and a smaller workforce.                   overall productivity increased at the
This report responds to a request from            gaining facilities after the consolidation.
Congressman James Gerlach of                      We also concluded that the
Pennsylvania’s Sixth Congressional                consolidation did not significantly impact
District regarding redistribution of              customer service, delayed mail
processing functions of the                       declined, and no employees lost their
Southeastern Pennsylvania Processing              jobs due to the consolidation.
and Distribution Center. The Area Mail
Processing (AMP) review for this facility         We found the AMP proposal overstated
redistributed its originating and                 annual savings by $4.6 million because
destinating mail to the Wilmington, DE,           it did not include additional workhour
Processing and Distribution Facility and          and transportation costs associated with
the Philadelphia, PA, Processing and              the consolidation. Finally, the Postal
Distribution Center. The consolidation            Service generally followed AMP
was completed on September 7, 2013.               guidelines. Although some deadlines
                                                  were missed, this did not adversely
Our objectives were to determine                  affect the consolidation process.
whether a business case existed for the
consolidation of mail processing                  WHAT THE OIG RECOMMENDED:
operations from the Southeastern                  We recommended the vice president,
Processing and Distribution Center into           Network Operations, direct the
the Philadelphia and Wilmington                   manager, AMP and Facility
facilities and to assess compliance with          Consolidations, to re-evaluate workhour
established AMP guidelines.                       and transportation savings and make
                                                  adjustments to the AMP proposal during
WHAT THE OIG FOUND:                               the first Post-Implementation Review.
A business case existed to support the
consolidation. It should produce a cost           Link to review the entire report
savings of about $3.8 million in the first
May 16, 2014

MEMORANDUM FOR:            DAVID E. WILLIAMS, JR.
                           VICE PRESIDENT, NETWORK OPERATIONS




FROM:                      Robert J. Batta
                           Deputy Assistant Inspector General
                            for Mission Operations

SUBJECT:                   Audit Report – Southeastern Pennsylvania Processing and
                           Distribution Center Consolidation
                           (Report Number NO-AR-14-006)

This report presents the results of our audit of the Southeastern Pennsylvania
Processing and Distribution Center Consolidation in the Philadelphia Metro District in
the Eastern Area (Project Number 13XG040NO000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James Ballard, director,
Network Processing and Transportation, or me at 703-248-2100

Attachment

cc: Corporate Audit and Response Management
Southeastern Pennsylvania Processing and                                                                            NO-AR-14-006
 Distribution Center Consolidation



                                                TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Capacity .......................................................................................................................... 2

Efficiency ......................................................................................................................... 4

Customer Service ............................................................................................................ 5

Priority Mail ..................................................................................................................... 6

Delayed Mail ................................................................................................................... 6

Employee Impact ............................................................................................................ 7

Cost Savings ................................................................................................................... 8

Area Mail Processing Guidelines .................................................................................... 9

Recommendation ............................................................................................................ 9

Management’s Comments ............................................................................................ 10

Evaluation of Management’s Comments ....................................................................... 10

Appendix A: Additional Information ............................................................................... 11

   Background ............................................................................................................... 11

   Objectives, Scope, and Methodology ........................................................................ 12

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Other Impacts ........................................................................................... 15

Appendix C: Management’s Comments ........................................................................ 16
Southeastern Pennsylvania Processing and                                                              NO-AR-14-006
 Distribution Center Consolidation



Introduction

This report presents the results of our audit of the Southeastern Pennsylvania
Processing and Distribution Center (P&DC) originating and destinating mail
consolidation into the Philadelphia, PA, P&DC and the Wilmington, DE, Processing and
Distribution Facility (P&DF) (Project Number 13XG040NO000). In response to a
congressional request, we assessed whether a business case existed for consolidating
processing operations and determined whether the U.S. Postal Service followed Area
Mail Processing (AMP) guidelines. The Southeastern AMP redistributed originating1 and
destinating mail2 from the Southeastern P&DC to the Philadelphia P&DC and
Wilmington P&DF. See Appendix A for additional information about this audit.

An AMP is the consolidation of all originating and/or destinating distribution operations
from one or more Post Office™ facilities with excess machine capacity into another
automated processing facility to improve operational efficiency or service. When
implemented properly, a consolidation enables the Postal Service to increase
automated operations and worker productivity, reduce personnel costs, and make more
efficient use of transportation while maintaining and improving the quality of mail
service. Specific factors that should be in an AMP proposal are the methodology for
calculating associated costs or savings and other evaluating criteria found in the AMP
guidelines.3

Conclusion

We determined a business case existed to support the consolidation. It should produce
a cost savings of about $3.8 million in the first year and about $9.4 million annually in
subsequent years. Our analysis also concluded that:

   There is adequate machine capacity and floor space to process mail at the
    Philadelphia P&DC and Wilmington P&DF.

   Overall productivity at the Philadelphia P&DC and the Wilmington P&DF increased
    after the consolidation.

   The consolidation did not significantly impact customer service performance
    measured by the External First-Class Measurement (EXFC) System.4


1
  The processing facility where the mailpiece enters the mailstream.
2
  Incoming mail arriving for its point of final delivery (destination) through a processing facility.
3
  Handbook PO-408, Area Mail Processing Guidelines, revision.
4
  A system that allows a contractor to perform independent service performance tests on certain types of First-Class
Mail (letters, flats, postcards) deposited in collection boxes and business mail chutes. It provides national, area,
performance cluster, and city estimates, which are compared with the Postal Service’s service goals. A consumer
advocate releases the results to the public quarterly.
                                                                1
                                                    Restricted Information
Southeastern Pennsylvania Processing and                                                                NO-AR-14-006
 Distribution Center Consolidation


      Delayed mail declined after the consolidation at the Philadelphia P&DC and
       Wilmington P&DF.

      No employees lost their jobs as a result of the consolidation and management
       reassigned all affected employees to facilities within a 50-mile radius.

      The AMP estimated savings to be $13,983,843 annually and we estimated a
       predicted savings shortfall of $4,625,829. See Appendix B for a detailed explanation
       of predicted savings shortfall.

      The Postal Service generally followed established AMP guidelines; however,
       employees did not complete some procedures timely.

Capacity

Adequate machine capacity and floor space existed at the Philadelphia P&DC5 and the
Wilmington P&DF to process mail volume from the Southeastern P&DC. After the
consolidation, the Philadelphia P&DC and Wilmington P&DF still had additional capacity
on all of their major equipment (see Tables 1 and 2).




5
    We calculated maximum capacity by either reducing idle time or expanding the window of operation.


                                                           2
    Southeastern Pennsylvania Processing and                                                              NO-AR-14-006
     Distribution Center Consolidation


                                    Table 1. Philadelphia P&DC Capacity


                                                 Maximum
                              Number            Processing             Projected Mail          Percentage of Idle
                                 of               Capacity                Volume                  Processing
      Equipment               Machines          (Mailpieces)            (Mailpieces)               Capacity
   Advanced Facer
  Canceller System
        (AFCS)                     10           635,376,000             257,444,149                     59%
    Automated Flat
   Sorting Machine
        (AFSM)                      5           418,500,000             332,153,033                     21%
   Delivery Barcode
    Sorter (DBCS)                  46          5,914,335,000           3,730,841,309                    37%
 Delivery Input Output
  Subsystem (DIOS)                 12          1,249,920,000            330,209,919                     74%
Source: Enterprise Data Warehouse (EDW) and Web End-of-Run (WebEOR).

                                     Table 2. Wilmington P&DF Capacity


                                                 Maximum
                              Number            Processing             Projected            Percentage of
                                 of               Capacity            Mail Volume          Idle Processing
        Equipment             Machines          (Mailpieces)          (Mailpieces)             Capacity
          AFCS                      5          317,688,000            93,656,245                   71%
          AFSM                      2          167,400,000           100,735,160                   40%
          DBCS
                                   18         2,314,305,000 1,680,031,730                          27%
            DIOS                   6           624,960,000   148,836,292                           76%
   Source: EDW and WebEOR.

    Floor Space and Dock Capacity. The Philadelphia P&DC and the Wilmington P&DF had
    sufficient floor space to accommodate the additional equipment and staging areas
    needed to process the additional mail volume (see Figure 1). Furthermore, adequate
    dock door capacity existed for morning delivery point sequence (DPS)6 dispatches to
    the stations.




    6
     DPS provides the Postal Service with a more cost-efficient way of preparing the carrier's mail in delivery sequence
    using automated processing equipment.


                                                              3
Southeastern Pennsylvania Processing and                                                                 NO-AR-14-006
 Distribution Center Consolidation



                                         Figure 1. Philadelphia P&DC




Observations at the Philadelphia P&DC revealed ample floor space for additional equipment and staging areas
Source: U.S. Postal Service Office of Inspector General (OIG) photograph taken November 2013.

Efficiency

Mail processing first-handling piece (FHP) productivity at the gaining facilities improved
after the consolidation. Compared to the same period last year (SPLY), Philadelphia
P&DC FHP productivity7 increased by 61 mailpieces per hour to 915 mailpieces per
hour (7 percent), while Wilmington P&DF productivity increased by 154 mailpieces per
hour to 1,162 mailpieces per hour (15 percent) (see Table 3).




7
    FHP divided by workhours is FHP productivity. This number is useful in evaluating overall productivity.


                                                             4
Southeastern Pennsylvania Processing and                                                         NO-AR-14-006
 Distribution Center Consolidation


                            Table 3. Impact on Productivity at the
                        Philadelphia P&DC and the Wilmington P&DF


             Philadelphia P&DC                                  Wilmington P&DF
                              FHP                                              FHP
             Period        Productivity                        Period       Productivity

   Fiscal Year (FY) 2013,              854                 FY 2013, Q1                  1,008
        Quarter (Q)1

          FY 2014, Q1                  915                 FY 2014, Q1                  1,162


   Percentage Change                 7.19%           Percentage Change                15.27%
    Source: EDW.

Customer Service

The consolidation did not significantly impact customer service performance for the
impacted Southeastern P&DC ZIP Codes measured by EXFC. As shown in Table 4,
service scores for overnight, 2- and 3-day mail classes increased in six of nine
ZIP Codes impacted by the consolidation. We also noted that three service scores
declined, but not significantly, when compared to the SPLY.

                                    Table 4. EXFC Measurement

                                             Before
    EXFC                                  Consolidation              After Consolidation
   Standard          ZIP Code              FY 2013, Q1                   FY 2014, Q1
                        189                           96.93                         94.97
   Overnight            193                           96.40                         96.19
                        194                           94.21                         95.83
                        189                           94.49                         94.22
      2-Day             193                           94.02                         94.40
                        194                           94.41                         94.89
                        189                           92.00                         92.73
      3-Day             193                           91.69                         91.70
                        194                           90.47                         93.53
Note: Red numbers are service scores that declined from FY 2013, Q1 compared to the SPLY. Blue
service scores are service scores that have increased from FY 2013, Q1 compared to the SPLY.
Source: EDW.




                                                      5
Southeastern Pennsylvania Processing and                                                          NO-AR-14-006
 Distribution Center Consolidation


Priority Mail

Priority Mail® air and surface service scores increased significantly for the impacted
ZIP Codes for FY 2014, Q1 compared to the SPLY (see Table 5). This means that on-
time delivery performance for these mail classes improved.

                                    Table 5. Priority Mail Service

                                                     Before
   Priority Mail                 ZIP              Consolidation              After Consolidation
 Service Standard               Code               FY 2013, Q1                   FY 2014, Q1
                                 189                         69.34                          78.84
           Air                   193                         65.68                          75.86
                                 194                         66.83                          79.32
                                 189                         84.22                          89.47
        Surface                  193                         82.73                          88.70
                                 194                         83.57                          89.21
Note: Blue service scores are service scores that have increased from FY 2013, Q1 compared to the SPLY.
Source: EDW.

Delayed Mail

Delayed mail decreased after the consolidation. Philadelphia P&DC delayed mail
volume as a percentage of total FHP volume declined by 4.55 percent (from 8.29
percent of FHP volume to 3.74 percent of FHP volume) after the consolidation.
Likewise, Wilmington P&DF delayed mail volume as a percentage of total FHP volume
declined by 1.38 percent (from 1.82 percent of FHP volume to 0.44 percent of FHP
volume). See Table 6.




                                                       6
Southeastern Pennsylvania Processing and                                        NO-AR-14-006
 Distribution Center Consolidation



                                Table 6. Delayed Mail Volume


                                                                      Percentage
                                             Total                    of Delayed
     Facility            Period             Delayed     Total FHP        FHP
              Before Consolidation
                                           42,010,252 506,470,448           8.29%
 Philadelphia     FY 2013, Q1
   P&DC
               After Consolidation
                                           24,562,661 656,778,336           3.74%
                  FY 2014, Q1


                 Before Consolidation
                                           2,681,991   147,479,566          1.82%
    Wilmington       FY 2013, Q1
      P&DF
                  After Consolidation
                                           1,165,249   265,544,355          0.44%
                     FY 2014, Q1
Source: EDW.

Employee Impact

Consolidation of the Southeastern P&DC into the Philadelphia P&DC and the
Wilmington P&DF did not result in any job losses. Management transferred affected
employees to the Philadelphia P&DC, the Wilmington P&DF, or another facility within 50
miles of the Southeastern P&DC. Specifically:

    Management reduced 407 craft employees (including clerks, mail handlers, and
     maintenance positions) and eliminated 38 executive and administrative schedule
     (EAS) positions at the Southeastern P&DC.

    Management reassigned 66 clerks and 67 mail handlers to the Philadelphia P&DC.

    Management reassigned 43 clerks and 25 mail handlers to the Wilmington P&DF.

    Management reassigned 29 clerks and 31 mail handlers to the Philadelphia National
     Distribution Center (NDC).

    Management transferred 20 clerks and two maintenance employees to other
     facilities.

    Twelve clerks and mail handlers either died or took other positions.



                                              7
Southeastern Pennsylvania Processing and                                   NO-AR-14-006
 Distribution Center Consolidation


   One hundred ten employees retired.

   Management created an additional 24 clerk and 14 mail handler positions at the
    Philadelphia NDC to support a new Automated Parcel and Bundle Sorter. We
    attributed a third of the positions to the AMP.

   Management transferred 22 EAS or postal career executive schedule employees to
    the Philadelphia P&DC, two to the Wilmington P&DF, one to the Philadelphia NDC,
    and eight to other facilities within the district. Five others either retired or
    relinquished their positions.

   The Southeastern P&DC AMP proposal did not include relocation costs for the
    affected employees since all reassignments were within 50 miles.

Cost Savings

The Postal Service estimated cost savings from the Southeastern P&DC consolidation
to be $8,420,869 in the first year, while the OIG estimated a first year savings of
$3,795,040 and cost savings of $9,358,014 annually in subsequent years. The
difference in the Postal Service and OIG estimates is due primarily to differences in
workhour adjustments and transportation costs (see Table 7).




                                           8
Southeastern Pennsylvania Processing and                                                            NO-AR-14-006
 Distribution Center Consolidation



                                  Table 7. Cost Savings Verification

                                               AMP Projected OIG Projected
          Savings Category                     Savings (Loss) Savings (Loss)                     Difference

Mail Processing Workhour                         $11,892,534            $10,994,754              ($897,780)
Savings*
Non-Mail Processing Craft/EAS
Workhour Savings                                    486,535                486,535                   0.00

Postal Career Executive Service/
EAS Supervisor Workhour Savings                     3,725,727             3,725,727                  0.00

Transportation Savings**                             434,120             (3,293,929)            (3,728,049)

Maintenance Savings                               (2,555,073)            (2,555,073)                 0.00

Annual Savings                                    13,983,843              9,358,014             (4,625,829)

One-Time Cost                                     (5,562,974)            (5,562,974)                 0.00

Total First Year Savings                          $8,420,869             $3,795,040             ($4,625,829)
*Management created 38 new positions at the Philadelphia NDC. However, we attributed a third of the positions to
additional mail volume from the Southeastern P&DC consolidation. We estimate these positions will cost the Postal
Service $897,780 annually.
**Because of the Southeastern P&DC consolidation, the Postal Service incurred additional highway contract route
trips at an additional cost of $3,293,929.
Source: EDW.

Area Mail Processing Guidelines

The Postal Service complied with stakeholder communication policies and followed
AMP guidelines when conducting the AMP study; however, some of the AMP study
steps were not completed within established deadlines. Missing these deadlines did not
adversely affect the consolidation process.

Recommendation

We recommend the vice president, Network Operations, direct the manager, Area Mail
Processing and Facility Consolidations, to:

1. Re-evaluate workhour and transportation savings and adjustments contained in the
   Area Mail Processing proposal during the first Post-Implementation Review.




                                                         9
Southeastern Pennsylvania Processing and                             NO-AR-14-006
 Distribution Center Consolidation



Management’s Comments

Management agreed with our findings and recommendation. Management agreed to
re-evaluate workhour and transportation savings in the AMP during the
Post-Implementation Review. The target completion date is June 2014.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
corrective actions should resolve the issues identified in the report.




                                           10
Southeastern Pennsylvania Processing and                                        NO-AR-14-006
 Distribution Center Consolidation


                            Appendix A: Additional Information

Background

As of June 30, 2013, the Postal Service has suffered net losses in 16 of the last
18 quarters. The requirement to prefund its retiree health benefit obligations, plus the
precipitous drop in mail volume caused by changes in consumers’ use of mail, have
been the two major factors contributing to these losses since the recession ended in
2009.

The Postal Service continues to aggressively pursue strategies to cut costs, including
consolidating mail processing, retail, and delivery networks to better align them with
declining mail volume and a reduced workforce.

During 2012, the Postal Service announced detailed plans to implement these
strategies and is acting to increase the productivity of the mail processing, delivery, and
retail networks. To this end, it is consolidating mail processing facilities, and
rescheduling transportation routes, while continuing to deliver appropriate service to
communities throughout America.

The Postal Service uses AMP guidelines to consolidate mail processing functions and
eliminate excess capacity, increase efficiency, and better use resources. Consolidations
provide opportunities for the Postal Service to reduce costs or improve service and
operate as a leaner, more efficient infrastructure. Automated processing of mail has
provided opportunities to consolidate:

   First-Class originating and incoming operations
   Overnight and originating Priority Mail processing
   Destinating Priority Mail processing
   Annexes into main facilities
   Facilities

In response to a request from Congressman James Gerlach of Pennsylvania’s Sixth
Congressional District, we initiated this audit of the Southeastern P&DC mail
consolidation into the Philadelphia P&DC and the Wilmington P&DF. Specifically,
Congressman Gerlach asked us to:

   Determine whether the consolidation would improve efficiency and productivity and
    reduce costs.

   Determine whether the consolidation would adversely affect customer service.

The Southeastern P&DC consolidation occurred on September 7, 2013. The
Southeastern and Philadelphia P&DCs are in the Philadelphia District and the
Wilmington P&DF is in the South Jersey District; however, both districts are in the
Eastern Area.



                                            11
Southeastern Pennsylvania Processing and                                    NO-AR-14-006
 Distribution Center Consolidation



Objectives, Scope, and Methodology

Our objectives were to assess whether a business case existed for consolidating
processing operations from the Southeastern P&DC into the Philadelphia P&DC and
Wilmington P&DF and determine whether the Postal Service followed AMP guidelines.

To meet our objectives, we interviewed Postal Service officials and reviewed applicable
guidelines, including Handbook PO-408 and the AMP Communication Plan. We
analyzed workhours, mail volume, and employee complement and observed the
facilities. We reviewed data from FY 2013, Q1 and FY 2014, Q2 to analyze efficiencies
at the Southeastern P&DC, Philadelphia P&DC and the Wilmington P&DF and used
computer-generated data from the following systems:

   Electronic Facilities Management
   Customer Experience Measurement
   EDW
   Web Complement Information
   WebEOR

We conducted this performance audit from July 2013 through May 2014, in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We discussed our observations
and conclusions with management on March 13, 2014, and included their comments
where appropriate.

We assessed the reliability of computer-generated data by interviewing agency officials
knowledgeable about the data. We determined that the data were sufficiently reliable for
the purposes of this report.




                                           12
Southeastern Pennsylvania Processing and                                      NO-AR-14-006
 Distribution Center Consolidation




Prior Audit Coverage

                                                        Final
                                                       Report       Monetary Impact
             Title               Report Number           Date         (in millions)
Altoona, PA, Originating and    NO-AR-13-010          9/30/2013         $138,839
Destinating Consolidation
Report Results:
Our report found there was a business case to support consolidation; however,
adjustments needed to be made to maintenance savings. Management agreed with
our recommendation and will make changes during the first Post-Implementation
Review.

New Castle and Greensburg,         NO-AR-13-004        8/16/2013         $978,954
PA, Consolidation
Report Results:
Our report found there was a business case to support the consolidation.
Management agreed with our recommendations to coordinate with the Facility
Service Office when rental space is vacated to ensure appropriate lease termination
actions are taken; take action to sublease, buy out, or terminate lease agreements for
vacated facilities; and ensure employees store Voyager eFleet cards securely.

Frederick, MD, to Baltimore,        NO-AR-12-006         7/3/2012         $558,021
MD, Area Mail Processing
Consolidation
Report Results:
Our report found that consolidation of destinating mail processing operations initially
resulted in significant delayed mail, declines in service and customer experience
scores, and increased transportation costs. Management acknowledged there were
challenges with the consolidation, but addressed many of the problems experienced
during the consolidation and operating conditions had improved. Management agreed
with the recommendation to avoid implementing consolidations during the fall and
holiday peak mailing seasons, as appropriate. Management also agreed with the
recommendation to ensure customer service commitments are met, but noted
operations for sectional center facility 217 have now stabilized and service levels
above national targets are being achieved. Management also stated the Postal
Service was paying a contractor for services no longer required since the
consolidation. It is working to ensure reimbursement of payments for services not
performed and expects this to be completed by the end of the calendar year.




                                           13
Southeastern Pennsylvania Processing and                                    NO-AR-14-006
 Distribution Center Consolidation



                                                         Final          Monetary
                                                        Report           Impact
            Report Title               Report Number     Date         (in millions)
Oxnard, CA, Processing and          NO-AR-12-004       3/6/2012            None
Distribution Facility Destinating
Mail Consolidation
Report Results:
Our report found there was a valid business case to support the consolidation.
Management agreed with our recommendations to monitor customer service
measurement, 24-hour clock indicators, delayed mail, and staffing levels to ensure
mail is processed timely.

Industry, CA, Processing and         NO-AR-12-002     10/17/2011        $1,321,651
Distribution Center Mail
Consolidation
Report Results:
Our report found there was a valid business case to consolidate originating mail
processing operations from the Industry P&DC into the Santa Ana P&DC to achieve a
cost savings of about $1.32 million annually. We made no recommendations.

Oshkosh, WI, Processing and           NO-AR-11-006     7/29/2011           None
Distribution Facility
Consolidation
Report Results:
Our report found there was a valid business case to support the consolidation with
the exception of sufficient floor space and machine capacity. Management agreed
with the recommendations, but disagreed with our analysis of floor space and letter
processing capacity.




                                             14
Southeastern Pennsylvania Processing and                                                               NO-AR-14-006
 Distribution Center Consolidation



                                       Appendix B: Other Impacts

         Recommendation                          Impact Category                             Amount
               1                            Predicted Savings Shortfall8                    $4,625,829




8
 The difference between the savings the Postal Service predicts for a project (capital investment, consolidation, and
so forth) and the actual savings or the OIG’s estimate of savings that will be realized.


                                                         15
Southeastern Pennsylvania Processing and                      NO-AR-14-006
 Distribution Center Consolidation


                          Appendix C: Management’s Comments




                                           16
Southeastern Pennsylvania Processing and        NO-AR-14-006
 Distribution Center Consolidation




                                           17
